The Library of Congress
Office of the Inspector General




          Semiannual Report to the Congress
                                  March 2014
       This semiannual report features images of cherry blossoms from the Library’s collections and grounds.
       In 1912, the city of Tokyo, Japan presented 3,020 cherry blossom trees to the city of Washington, DC
       as a gift of friendship. The trees were planted along the Tidal Basin and by the 1920s had overcrowded
       the landscape and required transplantation. Today, the Library is home to two of the transplanted trees
       and photographs of those trees are included in this report. For more information about the Library’s
       collection of cherry blossom images, related artifacts, and Tokyo’s gift of friendship please visit: http://
       www.loc.gov/exhibits/cherry-blossoms.




Front Cover: Cherry blossom tree on the Library’s grounds. A gift of friendship
from Tokyo, Japan to Washington, DC in 1912.

Photograph: Jennifer Bosch, OIG

Above: The Washington Monument and Tidal Basin with cherry blossoms, c. 2007.

Photograph: Carol Highsmith

Repository: Prints and Photographs Division
March 30, 2014


Message From the Acting Inspector General
In the last six months, we issued reports on the Library’s FY 2013 financial statements audit and
the alternate computing facility. We are pleased to report that for the eighteenth consecutive year,
the Library received an unmodified opinion on its consolidated financial statements. We also
continued a facilities planning review, completed an in-progress investigation of a former Library
contractor, and obtained a nine-year criminal sentence in our nationally covered stalking case.
Additionally, our long-tenured Inspector General, Karl W. Schornagel, retired.

During the next six months, we will report on the Library’s processing of born-digital collection
items in the eDeposit program; information technology consulting services contract; use of
the life cycle systems development process; information technology system certification and
accreditation efforts; and collections policy management of the Prints and Photographs division.

The Library implemented fifteen of our recommendations from prior semiannual periods,
including eight recommendations from reports that were not for public release. The Library also
incorporated suggestions from our investigations division regarding non-business Web site access
for Library employees.

Our publicly released reports are available online at www.loc.gov/about/oig. We appreciate the
cooperative spirit Library staff have shown during our reviews.




Kurt W. Hyde
Acting Inspector General
Table of Contents 1



Profiles............................................................................................................................................   1


Top Management Challenges......................................................................................................                        6


Audits, Surveys, and Reviews......................................................................................................                     10


       Alternate Computing Facility........................................................................................................            10


       Library of Congress FY2013 Financial Statements............................................................................                     10


Investigations.................................................................................................................................        13


        Significant Criminal, Civil, and Administrative Investigations.............................................................                    14


        Follow-up on Investigative Issues from Prior Semiannual Reports.......................................................                         14


Other Activities.............................................................................................................................          15


        Assistant Inspector General for Investigations Assists with House OIG Presentation.............................                                15


        OIG Oversight of CIGIE Financial Statements and Fund Balance.......................................................                            15



        Investigative Database....................................................................................................................     15



Review of Legislation and Regulations....................................................................................                              16


Unimplemented Recommendations............................................................................................                              17


Implemented and Closed Recommendations............................................................................                                     25


Funds Questioned or Put to Better Use...................................................................................                               27


Instances Where Information or Assistance Requests Were Refused...............................                                                         28


Status of Recommendations Without Management Decisions..........................................                                                       28


Significant Revised Management Decisions...........................................................................                                    28


Significant Management Decisions with Which OIG Disagrees.......................................                                                       28


Follow-up on Prior Period Recommendations........................................................................                                      28


OIG Organizational Chart.........................................................................................................                      29


Hotline Information.................................................................................................Inside Rear Cover 1





                                                                                               Spread: Photographic print of a view from the Tidal Basin with
                                                                                               cherry blossoms and the Washington Monument, c. 1920.

                                                                                               Repository: Prints and Photographs Division
             Profiles 

             Library of Congress
             The Library of Congress (Library) is the research and information arm of
             the United States’ national legislature and the world’s largest storehouse
             of knowledge. The mission of the Library is to support the Congress in
             fulfilling its constitutional duties and to further the progress of knowledge
             and creativity for the benefit of the American people. The mission is
             accomplished through more than 3,300 employees and contractors, and
             more than $800 million in annual appropriated funds and other financing
             sources.

             Founded in 1800, the Library is also the nation’s oldest federal cultural
             institution, holding more than 155 million items on 838 miles of shelves.
             These items include books, manuscripts, maps, prints and photographs,
             printed music, sound recordings, films, and microforms. Half of the
             Library’s collections are from outside the United States, representing 470
             languages. In addition to its three Capitol Hill buildings and Taylor Street
             Annex in Washington, DC, the Library operates six overseas offices and
             stores collections material in purpose-built facilities in Maryland, Illinois,
             and at the National Audio Visual Conservation Center in Culpeper,
             Virginia. More than 37 million original source analog items have been
             digitized and are accessible at www.loc.gov. The Library also holds a rapidly
             expanding collection of digital-born content.

             The Library’s core organizational components are:

                •    The Office of the Librarian,
                •    Library Services,
                •    The U.S. Copyright Office,
                •    The Congressional Research Service,
                •    The Law Library,
                •    The Office of Strategic Initiatives, and
                •    The Office of Support Operations.

             The Office of the Librarian provides leadership and executive management
             to the Library, overseeing the implementation and management of the
             Library’s mission to support the Congress in fulfilling its constitutional
             duties and to further the progress of knowledge and creativity for the benefit
             of the American people.




1 • MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS 1

Library Services performs the traditional functions of a national library:
acquisitions, cataloging, preservation, and reference services for both digital
and conventional collections. It operates the National Library Service for
the Blind and Physically Handicapped and the American Folklife Center,
among other programs.

The U.S. Copyright Office administers the copyright laws of the nation
and registers copyrightable material; its deposits of intellectual material
(such as, books, music, and movies) substantially contribute to the Library’s
collections.

The Congressional Research Service supports the legislative process by
providing exclusively to Congress objective, confidential assessments of
public-policy issues, and legislative options for addressing those issues.

The Law Library assists Congress and the legislative process by supporting
comprehensive research on foreign, comparative, international, and
U.S. law, and other legal reference services.

The Office of Strategic Initiatives directs the national program for long­
term preservation of digital cultural assets, leads a collaborative institution-
wide effort to develop consolidated digital future plans, and integrates the
delivery of informtion technology (IT) services.

The Office of Support Operations provides centralized leadership and
oversight of infrastructure services and includes: Human Resources
Services, Integrated Support Services, the Office of Security and Emergency
Preparedness, and the Office of Opportunity, Inclusiveness, and Compliance.

Last year, services provided by the Library included:

   •		   Fulfilling 513,946 reference requests,
   •		   Circulating 25 million disc, cassette, and Braille items to more
         than 800,000 blind and physically handicapped patrons,
   •		   Registering 496,599 copyright claims,
   •		   Receiving 15,000 items daily and adding more than 12,000 items
         daily to its collections,
   •		   Responding to more than 636,000 congressional reference requests
         and delivering to Congress more than 1 million research products and
         approximately 23,000 volumes from the Library’s collections, and
   •		   Providing to Congress access to more than 9,000 reports on
         legislative issues and preparing more than 2,900 tailored
         analyses.




           MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS • 2 1

             The Library of Congress also recorded 84 million visits and 519 million
             page-views of its primary source files on its Web site, and received 1.6
             million on-site visitors.


             Office of the Inspector General

             The establishment of statutory federal Inspector Generals (IG) began in 1978
             to create and empower independent audit and investigative organizations
             to focus on fraud, waste, and abuse within federal agencies. The Library of
             Congress Office of the Inspector General (OIG) was established in 1988 as
             a non-statutory office deriving its authority from the Librarian of Congress.
             The OIG became statutory with the passage of The Library of Congress
             Inspector General Act of 2005, with a mandate to:

                •		   Conduct and supervise audits and investigations relating to the
                      Library,
                •		   Lead, coordinate, and recommend policies to promote economy,
                      efficiency, and effectiveness, and
                •		   Keep the Librarian of Congress and the Congress fully and currently
                      informed about problems and deficiencies relating to the
                      administration and operations of the Library.

             The IG is a member of the Council of the Inspectors General on Integrity
             and Efficiency (CIGIE), a unified council of all federal statutory IGs, and
             serves on the council’s Audit and Legislation Committees. This Semiannual
             Report to the Congress is a part of the OIG’s statutory reporting requirements
             and is organized to address the major functions of the office including:

                •		   Significant audits, investigations, and other activities of the OIG,
                •		   Review of legislation and regulations affecting the Library, and
                •		   Library decisions on OIG recommendations and the status of
                      implementation, along with any resulting monetary benefits.

             The Audits Division conducts in-depth reviews that address the efficiency,
             effectiveness, and economy of the Library’s programs, activities, and
             functions; provides information to responsible parties to improve public
             accountability; facilitates oversight and decision-making; and initiates
             corrective action as needed.




3 • MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS 1

The Audits Division also contracts with an independent accounting firm
that addresses whether financial statements fairly present financial positions,
results of operations, and cash flows. The firm also assesses whether the
Library and other entities have adequate internal control systems and
comply with applicable laws and regulations.

The Investigations Division addresses alleged or suspected wrongdoing by
agency employees, contractors, or others responsible for handling federal
resources. Violations of Library regulations or fraud committed against
the Library can result in administrative sanctions and criminal or civil
prosecution. Contact information for the OIG Hotline is located on the
inside back cover of this report.

Our staff are educated and certified in various disciplines. We are,
collectively, five certified public accountants, one attorney, one certified
internal auditor, two certified information systems auditors, one certified
computer examiner, one access data certified examiner, one certified forensic
accountant, four seized computer evidence recovery specialists, four special
agents, and other highly qualified staff.

OIG reports are available at www.loc.gov/about/oig.




  Above: Watercolor by K. Tsunoi, Mikuruma-gaeshi, c. 1921. One of eleven illustrations affiliated
  with Dr. Shio Sakanishi, the first Japanese librarian at the Library of Congress.

  Repository: Asian Division




            MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS • 4 1

             Inspector General Retires
             Karl W. Schornagel, Inspector General of the Library of Congress, retired
             in January of 2014. Mr. Schornagel’s career spanned over 34 years of federal
             agency service including nearly 13 years at the Library. He is the Library’s
             longest serving Inspector General, and the first to serve under the Library
             of Congress Inspector General Act of 2005.

             During his tenure the Office of the Inspector General’s Audits Division
             received unqualified (pass) opinions on all external peer reviews conducted.
             His emphasis on, and adherence to, auditing standards was exemplified
             by his service as Vice Chairman on the CIGIE Audit, Legislation,
             and Investigations Committees. Mr. Schornagel is a Certified Public
             Accountant in Virginia, a member of the American Institute of Certified
             Public Accountants, and graduated from George Mason University with a
             Bachelor of Science degree in Business Administration.

             Highlights of Mr. Schornagel’s career at the Library of Congress include
             conducting over 150 audit reports and closing over 650 investigation cases.
             As part of this work, he saved the National Library Service for the Blind and
             Physically Handicapped over $19 million in contract costs and recovered
             a $1 million settlement for improper billings by a security contractor. Mr.
             Schornagel also issued an analysis of the Library’s strategic planning for
             information technology investments and included recommendations for
             improving governance and realizing long-term savings for information
             technology systems. He also helped develop the Financial Hosting
             Environment for the Library’s business applications, thereby resolving
             material weaknesses and significant deficiencies threatening the Library’s
             independent auditor’s opinion on its financial statements. Mr. Schornagel
             chaired a legislative branch working group to develop and implement a
             single financial statement auditor contract, saving over $1.6 million in the
             audit fees.




5 • MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS 1

Top Management Challenges 1

This section provides a collective summary of issues covered by OIG
reviews that, in our view, represent long-term challenges for the Library of
Congress.

Facilities

Collections Storage—A major component of the Library’s mission is to
properly store and preserve its collections. During the last semiannual
period, we conducted a review of the Library’s processing, storage, and
accessibility of materials and found that it poses a serious and growing
challenge for the Library. As of September 30, 2012 eighteen percent of the
collections were in arrearage and not readily available to researchers. Some
items, received as far back as the 1980s, remain unprocessed.

In addition to accessibility, the rate of collection impacts storage facilities
and the condition of the materials. As the Library adds about 250,000 books
and periodicals to the collections each year, the space shortage will continue
to worsen. The Library’s three Capitol Hill buildings are collectively at
110 percent of their capacity, causing premature damage and deterioration
to some of the buildings and its materials. The floors in the stacks of the
Jefferson and Adams buildings are now used to store the general collections,
and the Library is forced to double- and triple-shelve materials. Further
exacerbating the storage issue is the lack of secure storage for some rare
and valuable collection materials. The Law Library and the Music and
Asian Divisions, among others, have been forced to store some of their rare
materials in less-than-optimal conditions from a security and preservation
point of view.

In 2002, collections storage modules at the Library’s Fort Meade location
were to provide space for the growing collections. Additional modules were
completed in 2005 and 2009 and include both general collection items and
special collection materials such as maps, globes, manuscripts, prints and
photographs, and sheet music. They are nearly filled to capacity. The FY
2014 appropriation included funding for construction of a fifth module,
however, the resulting space will not accommodate the growing collections.

The Library is addressing the overflow through a number of interim
measures. Among these is the installation of high-density shelving at its
Landover warehouse to store an estimated 800,000 items, and an initiative
to pursue alternative methods of shelving in its Capitol Hill facilities. The
Library is also working with the Architect of the Capitol to lease additional
facilities to house the overflow materials. In addition, the newly established




           MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS • 6 1

             Collections Development Office issued a report on the Library’s practice of
             obtaining duplicate copies for the general collections. The report suggested a
             study on the cost effectiveness of removing duplicate copies currently located
             in offsite storage facilities and purchasing second copies only when justified.
             The Librarian subsequently approved the report’s recommendations and we
             commend the Library’s accomplishments in this critical area.

             Reading Room Space Allocations—The Internet age has allowed the
             Library to increase public access to its collections by digitizing and placing
             them online. Today, the Library’s Web site, www.loc.gov, receives billions of
             page hits annually. However, this shift in access modalities has resulted in a
             significant decrease in the in-person use of Library materials and resources.
             Consequently, there is a significant amount of underutilized reading room
             space.

             In 2012 the Library initiated the I-900 program to address these concerns
             by consolidating collection materials into a Center of Knowledge within the
             Main Reading Room and adjacent spaces. The Library’s implementation
             of the plan was recently discontinued in favor of focusing on the strategies
             developed in the Futures Program. The first draft of the Futures Program
             action plan is targeted for completion in June of 2014. We will report on
             the progress of this program as well as determine its impact on the Library’s
             collections and storage challenges in our next semiannual report.

             Conference and Training Rooms—An OIG audit identified an increasing
             number of conference and training facilities in the Library’s James Madison
             Memorial Building. In 2008 there were more than 120 such facilities in
             the building totaling more than 42,000 square feet which were, in many
             cases, underutilized. Consolidating and centrally locating conference and
             training rooms, as the Copyright Office has done, would make a substantial
             contribution toward efficiency in the Library’s use of floor space.

             Information Technology (I T ) Infrastructure

             In 2009 we issued an audit report that focused broadly on the Library’s
             plan for managing its IT infrastructure investments. The audit looked at:
             1) whether the Library’s IT Strategic Plan aligned with its overall strategic
             plan, 2) the validity and integrity of the IT plan, 3) the appropriateness and
             effectiveness of the Library’s IT organizational structure and placement, and
             4) the extent to which relevant recommendations made by the National
             Research Council in a 2000 report were implemented by the Library.
             We made a series of recommendations about: 1) maturing the Library’s




7 • MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS 1

IT strategic planning process, 2) making IT investments from a cost/benefit
and institution-wide perspective, 3) considering organizational changes,
4) implementing an enterprise architecture program for planning future
technology, and 5) improving customer service.

In late 2011, we issued a follow-up report. In general, we found that the
Library was implementing recommendations but the progress was slower
than we had expected. We believe Library management’s continued focus
on implementing these recommendations will result in substantial long­
term efficiencies.

We continue to focus OIG efforts on the Library’s IT investments and
operations. During this semiannual period, we engaged CliftonLarsonAllen,
LLP (CLA) to perform a review of the Alternate Computing Facility. CLA
issued its report and identified issues similar to our previous reports in 2002
and 2009.

In its FY 2015 appropriations report, the U.S. House of Representatives
Legislative Branch Subcommittee on Appropriations tasked the Government
Accountability Office to perform a similar review to that performed by our
office in 2009 and 2011. The evaluation will include, among other items,
the Library’s strategic planning and governance structure for IT which
relate to recommendations we made for improvement in prior reports.

Performance Management

As a result of several OIG audits, and at the direction of Congress, the
Library adopted a planning, budgeting, and management system based on
the Government Performance and Results Act (GPRA). In its initial stages,
the Library established a GPRA-styled strategic planning process, linked its
planning and budgeting to its strategic planning format, initiated GPRA-
styled annual program plans, and introduced performance management
to its workforce. The adoption of a GPRA-styled management approach
will allow the Library to better analyze and report its activities and more
successfully compete for diminishing discretionary funding. Recognizing
that the Library has developed a robust planning and budgeting framework,
it still has work to do to improve these processes.

In passing the GPRA Modernization Act of 2010, Congress made
adjustments to assure that agencies more efficiently manage their GPRA
efforts, improve the quality of performance metrics, and clearly disclose




          MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS • 8 1

             the accuracy of performance data. To its credit, Library management has
             designed a more comprehensive performance management approach for
             FY 2014 that should provide valid and reliable performance metrics to
             support management decision-making. The Library still needs to develop
             a mechanism for evaluating programs and establish a methodology to relate
             resource allocations to program performance.

             Contracting

             A series of OIG reports dating back to 2002 document weaknesses that
             have beset the Library’s contracting function. Principal areas of concern
             include a questionable understanding of federal contracting by participants
             in the contracting chain (ranging from the service units to the contracting
             office), poorly trained staff, a lack of continuity in leadership in the Office
             of Contracts Management, an inefficient financial system contracting
             module, and ineffective contract review quality assurance procedures.
             These deficiencies may prevent the Library from obtaining the best value in
             contracts and expose the Library to an unacceptably high risk of inefficiency
             and waste of funds.

             Work we conducted during the March 2012 semiannual period concluded
             that the weaknesses we have reported in the Library’s contracting function
             continued, and in fact, the function had further deteriorated since our
             last report in 2008. The Library has begun to take action. In 2013, the
             Library appointed a new Director in the Office of Contracts and Grants
             Management, who brings extensive federal contracting and legal experience
             to the Library. We will actively monitor and report on progress in this area.




9 • MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS 1

Audits, Surveys, and Reviews
Library of Congress

Alternate Computing Facility
Data Backup and Recovery Procedures

Audit Report No. 2013-IT-103

Congress created the Alternate Computing Facility (ACF) in 2002 to provide
backup and business continuation for important systems and applications
in the event of an interruption to Library operations at its Capitol Hill data
center. In 2009, the OIG reported that it was unclear whether the Library’s
operations at the ACF could successfully provide service to its customers in
the event of a catastrophic failure of the main data center.

Based on OIG’s ongoing concern, we engaged CLA to perform an audit
of the operating effectiveness of Information Technology Services (ITS)
operations at the ACF, its compliance with Library policies, and ITS
directives and procedures. In its report, CLA noted three internal control
and operating issues at the ACF and made the following recommendations
that were similar to those we made in 2009:

LOC’s Server Recovery Priorities May not be Efficiently Designed—
The Library uses “tier“ categories to determine the priority for recovery
of specific systems and applications at the ACF. Systems and applications
with the highest mission priority are categorized as tier 1; tier 2 and 3
are for less critical systems and applications. CLA found that systems
and applications classified with different tiers were supported by the same
servers at the ACF, which CLA believed could have a negative impact on the
efficiency of recovery efforts. CLA recommended that ITS review common
system platforms and evaluate whether consolidating servers to the same
tiers (all tier 1 systems and applications segregated to dedicated servers)
would be more effective. ITS should then revise the IT Strategic Plan and
the Enterprise Architecture to be consistent with the current or the more
effective method.

Master Tape Catalog and Tape Testing Activities Need to be
Strengthened—CLA found that tier 1 and 2 systems were not tested at
the ACF in accordance with Library policy. Only four of the fourteen tier
1 and 2 applications managed by ITS were functionally tested during FY
2013. Additionally, ITS does not test tape backups at the ACF as part
of its normal disaster recovery testing. Furthermore, there is no copy of




          MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS • 10 1

              the master backup tape catalog kept at the ACF. CLA recommended that
              ITS ensure that all high-impact (tier 1 and 2) systems go through disaster
              recovery exercises on a scheduled and regular basis, in accordance with
              Library policy. Additionally, CLA recommended that ITS utilize a master
              tape catalog at the ACF and routinely test restorations from tape media.

              Replication of Server File Systems Needs Improvement—CLA’s testing
              to evaluate the consistency and completeness of data transmission from
              the primary data center to the ACF found that replicated file systems were
              not mounted during normal operations preventing it from confirming that
              data on the Capitol Hill servers were successfully synced with ACF servers.
              Without a process that ensures critical files are accurately and completely
              sent to the ACF, ITS risks using incomplete or invalid data to restore
              mission critical systems.

              CLA recommended that ITS: 1) monitor automated backup transmissions
              to the ACF to ensure the completeness and integrity of data transferred
              from file systems and directories, document known discrepancies, and
              implement adequate mitigating controls; and 2) periodically review and
              verify that server content at the ACF is valid and matches data at the
              primary facility.



              Fiscal Year 2013 Financial Statements

              Audit Report No. 2013-FN-101

              We are pleased to report that for the eighteenth consecutive year, the
              Library has received an unmodified opinion (formerly called an unqualified
              or clean opinion) on its consolidated financial statements. Under contract
              with our office, CLA audited the Library’s FY 2013 consolidated financial
              statements. In the auditor’s opinion, the financial statements, including the
              accompanying notes, presented fairly, in all material respects, the financial
              position of the Library and its net costs, changes in net position, and
              budgetary resources for the year then ended, in conformity with accounting
              principles generally accepted in the United States.

              The auditor’s consideration of internal controls over financial reporting
              resulted in no material weaknesses or significant deficiencies. The auditors
              found no instances of noncompliance with laws and regulations or other
              matters requiring reporting under generally accepted government auditing
              standards.

              Right: View of the Thomas Jefferson Building with cherry blossoms.

              Photograph: Jennifer Bosch, OIG




11 • MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS 1

MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS • 12 1

     Investigations 1

     During the reporting period, we opened 21 investigations and closed 20. We forwarded two investigations
     to Library management for administrative action. Two investigations were forwarded to the Department
     of Justice for criminal prosecution, one was accepted and one is pending. Investigation case and Hotline
     activities are detailed below.


      Table 1:          Investigation Case Activity 1
                                      Criminal/Civil          Administrative                 Total
      From Prior Reporting Period           25                       9                        34
      Opened                                13                       8                        21
      Closed                                12                       8                        20


      End of Period                         26                       9                        35



      Table 2:          Hotline Activity 1

                                          Count
      Allegations received                  23
      Referred to management                9
      Opened as investigations              5
      Opened as audit                       0
      Referred by audit division            1
      Closed with no action                 9




13 • MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS 1

Significant Criminal, Civil, and
Administrative Investigations

Stolen Civil War Photograph

The OIG worked with the Office of the General Counsel to help resolve a
claim that an ambrotype photograph in the Library’s collections properly
belonged to the Ohio Historical Society. The photograph was stolen from
the Ohio Historical Society in 1978, sold, and subsequently donated to the
Library’s Civil War collection by a bona fide purchaser. With the assistance
of the donor, OIG agents traced the sale of the item back to a deceased
broker who was likely the original recipient of the stolen item. The Library
is considering the OIG’s report and the Library’s legal authority to transfer
the item to the Ohio Historical Society.

Referrals and Assistance to Other Law Enforcement Agencies

During the reporting period, the OIG assisted a number of other federal
law enforcement entities. These assists involved surveillance, reviewing se­
curity camera footage, and technical coordination in records management
with multiple Library divisions. Of note, we assisted the United States
Capitol Police on two cash thefts and a theft of government property with
the Architect of the Capitol. We also assisted with a request from National
Aeronautics and Space Administration OIG concerning a Federal Employ­
ees’ Compensation Act claim.



Follow-up on Investigative Issues from Prior
Semiannual Reports

Employee Misconduct

We previously reported on a harassment complaint regarding a Library em­
ployee threatening a former acquaintance. The employee had posed as the
victim, posting over 100 Craigslist ads from his Library computer for sexual
encounters. The employee was arrested and indicted for stalking from a
federal facility, violating the terms of a protective order, and identity theft
and held without bail due to the serious nature of the crimes.

During this reporting period, the employee was terminated from the Li­
brary and was sentenced to 66 months in a federal correctional facility,
three years of supervised release after the sentence, and was ordered to pay
$3,000 in restitution. As a result of this case and others with similar pat­
terns, OIG recommended that the Library block employee access to certain
non-business related Web sites. The Library subsequently implemented our
recommendation.


           MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS • 14 1

                       Other OIG Activities 1


                       Investigative Database

                       To assist with recoveries of stolen property, OIG added access to an ad­
                       ditional database to increase our investigative effectiveness. We are now
                       able to search for stolen items throughout the country using an enhanced
                       reseller and pawn shop database.

                       OIG Oversight of CIGIE Financial Statements
                       and Fund Balance

                       The OIG oversaw CIGIE’s FY 2013 financial statements audit. OIG’s
                       oversight included reviewing the contractor’s audit report, working papers,
                       and related documentation, and inquiring of its representatives. OIG found
                       no instances where the contracting firm did not comply, in all material
                       respects, with generally accepted government auditing standards. OIG also
                       conducted an agreed upon procedures engagement to confirm the CIGIE’s
                       Sunshine Fund balance as of December 11, 2013.

                       Assistant Inspector General for Investigations
                       Assists House OIG in Presentation

                       At the request of the Inspector General for the House of Representatives,
                       the Library’s Assistant Inspector General for Investigations along with the
                       Institute of Internal Auditors participated in developing and presenting an
                       on-site training presentation, When Audits Become Investigations. This pre­
                       sentation is available as a Webinar for continuing education and has been
                       used by over 2,500 internal auditors.




                       Left: Cherry blossoms around the Tidal Basin.

                       Photograph: Carol Highsmith, between 1980
                       and 2006

                       Repository: Prints and Photographs Division




15 • MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS 1

Review of Legislation and Regulations 1


Table :                Review of Library of Congress Regulations (LCRs) and Directives 1

          Reviewed                                Comments by the Office of the Inspector General
LCR 811
                                 We commented that the LCR did not address the revocation of a reader card or any revocation
Required Information about
                                 related issues.
Readers
                                 We commented that the LCR should reference appointing an authority in Library Services to ensure
LCR 1815-1
                                 follow-up action on missing or stolen property. We also made several recommendations for removing
Reporting Missing or Stolen
                                 active assets and suggested establishing a category for property that is not capitalized. Finally, we
Library Property
                                 stated that the responsibility and authority of the OIG should be clarified in appropriate sections.
LCR 2017-2                       We recommended adding language highlighting workforce performance management as an essential
Performance Appraisal Plan for   component of planning and budgeting and stated that performance plans should align with annual
Non-Bargaining Unit, Non­        program goals and the Library’s strategic plan. We made suggestions regarding performance appraisals,
Managerial/Non-Supervisory       general clarification of roles, terminology, and definitions throughout the LCR and recommended
Staff, GS-15 and Below           defining the mechanisms that ensure adherence to the regulation. 

                                 We recommended adding language highlighting workforce performance management as an essential 

LCR 2017-2.2
                                 component of planning and budgeting and stated that performance plans should align with annual
Performance Appraisal Plan for
                                 program goals and the Library’s strategic plan. We made suggestions regarding performance appraisals,
Managers and Supervisors,
                                 general clarification of roles, terminology, and definitions throughout the LCR and recommended
GS-15 and Below
                                 defining the mechanisms that ensure adherence to the regulation.




                                 MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS • 16 1

Unimplemented Recommendations 1

Table 4A:      Significant Recommendations from Previous Semiannual
               Reports for Which Corrective Action Has Not Been Completed
       Subject              Report No.         Office         Rec.       Summary and Status of Recommendation
                            Issue Date                        No.
Office of the Librarian
	
                                                                      System managers for Raiser’s Edge should regularly review
                                                                      the system’s transaction logs for suspect data events—The
Raiser’s Edge                2006-IT-302     Development              Office of the Librarian will work with ITS to develop the
                                                               III
Software Program            December 2007       Office                technical and operational processes required to make auto­
                                                                      mated log reviews of Raiser’s Edge functional. The target date
                                                                      for implementation is the fourth quarter of FY14.
                                                                      Create a policy using Internal Revenue Service rules to
                                                                      properly classify workers as independent contractors or
                                                                      employees and require service units to submit documenta­
                                                                      tion to the Office of Contracts and Grants Management
                                                                      (OCGM) for nonpersonal contract services—The Office of
                            2010-PA-105      Office of the
Multi-Sector Workforce                                        III.1   the General Counsel (OGC) addressed this issue by train­
                            March 2011      General Counsel
                                                                      ing Library managers and OCGM. Changes to LCR 2111
                                                                      and Form 52 will be addressed in conjunction with other
                                                                      contract guidance under the Governing Documents initia­
                                                                      tive. The target date for implementation is the fourth quar­
                                                                      ter of FY 14.
                                                                      Incorporate in the financial statements, where applicable,
                                                                      management discussion and analysis information about
                                                                      unmet performance targets and related goals, plans, and
                                                                      schedules for achieving them, assessments of practicality and
                                                                      feasibility of the goals, and disclosure of the action that man­
                                                                      agement must take for success—Beginning with FY 13, ex­
Performance-based           2013-PA-101
                                             Library-wide     II.1    planations of why targets were unmet and actions to improve
Budgeting III               March 2013
                                                                      performance were submitted by service units. The Library’s
                                                                      FY 14 Financial Statements will describe validation and veri­
                                                                      fication of performance information recorded in the manage­
                                                                      ment discussion and analysis (MD&A) section and unmet
                                                                      targets. Target date for implementation is the first quarter
                                                                      of FY 15.
                                                                      Add to MD&A disclosures an explanation of how manage­
                                                                      ment ensures the accuracy and reliability of the data used
                                                                      to measure progress towards each of its performance goals,
                                                                      including an identification of the means used to verify and
                                                                      validate measured values, the data sources, the required level
Performance-based           2013-PA-101                               of data accuracy, data limitations, and compensation imple­
                                             Library-wide     II.2
Budgeting III               March 2013                                mented for the limitations to reach the required level of ac-
                                                                      curacy—Beginning with the Library’s FY 14 Financial State­
                                                                      ments, the report will describe the process used to validate
                                                                      and certify accuracy of the performance information record­
                                                                      ed in the MD&A section. Target date for implementation is
                                                                      the first quarter of FY 15.
                                                                      Develop a separate performance accountability report to fit
                                                                      the Library’s compliance with the spirit of the Government
                                                                      Performance and Results Act and the Modernization Act
                                                                      and fully disclose to stakeholders and the public the annual
                                                                      results of its performance management efforts. The Library
Performance-based           2013-PA-101
                                             Library-wide     II.3    should place this report on its public Web site—The Library
Budgeting III               March 2013
                                                                      is developing a Performance and Accountability Report. The
                                                                      draft incorporates most of the elements described in the OIG
                                                                      report. The Library will refine the draft in FY 14 and publish
                                                                      the financial statements on its Web site. The target date for
                                                                      implementation is the second quarter of FY 15.




17 • MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS 1

Table 4A:       Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
       Subject          Report No.         Office           Rec.         Summary and Status of Recommendation
                        Issue Date                          No.
Office of Contracts and Grants Management (OCGM)
                                                                      Establish a support component to ensure effective and ef­
                                                                      ficient performance of critical functions that support the
                                      Office of Contracts             OCGM. The position should be staffed with a senior, ex­
Weaknesses in the       2011-SP-106
                                          and Grants        I.A.1     perienced General Schedule 1102, Grade 14—The OCGM
Acquisition Function    March 2012
                                        Management                    receives policy support from the OGC and is recruiting for
                                                                      a GS-1102-14 to support contract operations. The expected
                                                                      target date for implementation is the third quarter of FY 14.
                                                                      Rewrite the Contracts Operating Instructions (COI) manual
                                                                      deleting those policies that merely restate the Federal Acqui­
                                                                      sition Regulations (FAR) and draft specific guidance geared
                                      Office of Contracts
Weaknesses in the       2011-SP-106                                   toward the Library’s acquisition activities. Organize the COI
                                          and Grants        I.A.2
Acquisition Function    March 2012                                    so that it is easily accessible—As part of the Library’s Gov­
                                        Management                    erning Documents initiative the COI manual was updated
                                                                      and included in the Contracts Technical Guide. The guide
                                                                      is scheduled for publication in the fourth quarter of FY 14.
                                                                      Rewrite COI 1003 to be a more comprehensive oversight
                                      Office of Contracts             policy and contract review process—The oversight and re­
Weaknesses in the       2011-SP-106
                                          and Grants         I.F.2    view process of COI 1003 was updated and included in the
Acquisition Function    March 2012
                                        Management                    consolidated Contracts Technical Guide. The guide is sched­
                                                                      uled for publication in the fourth quarter of FY 14.
                                                                      Develop directives that clearly set forth the policy and con­
                                                                      straints for using LCR 2111—LCR 2111 is being revised,
                                      Office of Contracts
Weaknesses in the       2011-SP-106                                   updated, and incorporated into the Contracts Technical
                                          and Grants        II.G.1
Acquisition Function    March 2012                                    Guide, corresponding with other guidance related to ser­
                                        Management
                                                                      vice contracts. The guide is scheduled for publication in the
                                                                      fourth quarter of FY 14.
                                                                      Restructure the Alert Handbook into a series of user-friendly,
                                                                      PowerPoint® customer service training packages directed at
                                                                      two levels, executive leadership and service units—OCGM is
                                      Office of Contracts             updating portions of the its Web site to include acquisition
Weaknesses in the       2011-SP-106
                                          and Grants        III.B.1   information, contracting officer’s representative (COR) cer­
Acquisition Function    March 2012
                                        Management                    tification and training, and templates for use by contracting
                                                                      staff and CORs. Content updates will continue through the
                                                                      Library’s Governing Documents initiative. The target date
                                                                      for completion is the fourth quarter of FY 14.
                                                                      Develop a procurement process standard operating pro­
                                                                      cedure so that customers understand that a good procure­
                                                                      ment package includes a statement of work, market research,
                                                                      independent government cost estimate, and the evaluation
                                                                      factors used in the evaluation process. The procedure should
                                                                      include a procurement package checklist—The Director of
                                                                      OCGM briefed Library supervisors and IT collaborative fo­
                                      Office of Contracts             rums, and targeted senior staff meetings on contract-related
Weaknesses in the       2011-SP-106
                                          and Grants        III.B.4   issues. Training for contract staff and CORs on acquisition
Acquisition Function    March 2012
                                        Management                    planning, contract formation and structure, and contract ad­
                                                                      ministration is also ongoing. The Director worked with OSI
                                                                      on the related business workflows for OCGM and will incor­
                                                                      porate results into future training and development sessions.
                                                                      OCGM is updating their Web site to include acquisition in­
                                                                      formation, COR certification and training, and templates for
                                                                      use by contracting staff and CORs. The target completion
                                                                      date for implementation is the fourth quarter of FY 14.




                              MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS • 18 1

Unimplemented Recommendations 1

Table 4A:        Significant Recommendations from Previous Semiannual 

                 Reports for Which Corrective Action Has Not Been Completed 1
       Subject            Report No.           Office           Rec.        Summary and Status of Recommendation
                          Issue Date                            No.
Office of Contracts and Grants Management (Continued)
                                                                         OCGM and the Office of the Chief Financial Officer
                                                                         (OCFO) should update directives to officially reflect the
                                                                         current spending limit for micro purchases of $3,000—The
                                                                         Purchase Card Technical Guide is in draft, awaiting review. It
                                          Office of Contracts            reflects the current micro purchase threshold of $3,000 for
                          2011-SP-101
Improper Payments II                          and Grants         I.2     supplies and $2,500 for services. The technical guide will be
                           May 2011
                                            Management                   published as part of the Governing Documents initiative.
                                                                         The guide will also correspond with FAR 13 on simplified
                                                                         acquisition procedures for purchases at or below the micro
                                                                         purchase threshold. The target date for implementation is the
                                                                         fourth quarter of FY 14.
Office of Opportunity, Inclusiveness, and Compliance (OIC)
                                                                         Evaluate and revise LCR 2010-3.1—Evaluation and revision
                                               Office of                 of LCR 2010-3.1 is complete. The Office of Workforce De­
Equal Employment
                          2001-PA-104       Opportunity,                 velopment, OGC and the Office of Opportunity, Inclusive­
Opportunity                                                       I
                          February 2003   Inclusiveness, and             ness, and Compliance (OIC) will work with the collective
Complaints Office
                                             Compliance                  bargaining units on final revisions and language. Target date
                                                                         for implementation is the fourth quarter of FY 14.
                                                                         OIC, in collaboration with the Library’s Human Capital
                                                                         Management Flexibilities Working Group, should com­
                                                                         plete the barrier identification and elimination process initi­
                                                                         ated with the Multi-Year Affirmative Employment Program
                                                                         Plan (MYAEPP) by assessing the success of the plan—Based
                                                                         upon workforce assessment data, the Human Capital Plan­
                                                                         ning Board concluded that developing a Master Recruitment
Follow-Up Review of the                        Office of
                                                                         Plan for each vacancy requires collaboration between Human
Office of Opportunity,    2011-PA-106       Opportunity,
                                                                II.2.b   Resources Services (HRS), OIC, and service units. The plan
Inclusiveness, and Com­    June 2011      Inclusiveness, and
                                                                         will address the professional needs of service units and under­
pliance                                      Compliance
                                                                         represented groups. The MYAEPP Reassessment Working
                                                                         Group completed its assessment and made a specific recom­
                                                                         mendation to the Human Capital Planning Board to develop
                                                                         a comprehensive Strategic Diversity Plan networked to all
                                                                         diversity-related programs, activities, services and collections
                                                                         at the Library. The target implementation date is the fourth
                                                                         quarter of FY 14.
Office of Support Operations (OSO)
	
                                                                         Determine whether centralizing teleworking policy author­
                                                                         ity in a Telework Coordinator would add value to the pro­
                                                                         gram—The Telework Steering Committee (TSC) assesses
                                                                         the effectiveness of the Library’s telework strategy, reviews
                                                                         emerging best practices, evaluates infrastructure equipment,
                          2010-PA-102     Office of Support
Telework Program                                                 I.1     recommends processes to address changes in technology, and
                           June 2011         Operations
                                                                         facilitates telework objectives. The revised telework regula­
                                                                         tion was reviewed by the Library of Congress Regulation
                                                                         Working Group and comments were forwarded to HRS for
                                                                         final revision. The target date for implementation is the third
                                                                         quarter of FY 14.




19 • MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS 1

Table 4A:      Significant Recommendations from Previous Semiannual
               Reports for Which Corrective Action Has Not Been Completed
       Subject         Report No.        Office          Rec.        Summary and Status of Recommendation
                       Issue Date                        No.
                                                                  Collect data on and evaluate the costs and benefits of tele­
                                                                  working to determine whether it provides a cost-effective
                                                                  means to perform specific work requirements—The Library
                       2010-PA-102   Office of Support
Telework Program                                          I.3     is reviewing best practices and is assessing infrastructure
                        June 2011       Operations
                                                                  equipment. In addition to collecting this telework data, the
                                                                  TSC will conduct a cost-benefit analysis. The target date for
                                                                  implementation is the third quarter of FY 14.
                                                                  Develop a telework health and safety checklist and incorpo­
                                                                  rate it into its telework agreement forms—Under the revised
                       2010-PA-102   Office of Support            telework regulation, the TSC will develop a health and safety
Telework Program                                          I.4
                        June 2011       Operations                checklist and each teleworking employee will complete and
                                                                  submit the form. The target date for implementation is the
                                                                  third quarter of FY 14.
                                                                  Develop an interactive telework training program and require
                                                                  teleworkers and their managers to successfully complete it
                       2010-PA-102   Office of Support
Telework Program                                          I.5     before beginning telework—The program will be released
                        June 2011       Operations
                                                                  with the revised telework regulation in the third quarter of
                                                                  FY 14.
                                                                  Revise LCR 2014-8 to address the permissibility of accessing
                                                                  sensitive, unclassified, and “For Official Use Only” data at
                       2010-PA-102   Office of Support
Telework Program                                          I.6     offsite locations—The revised LCR was reviewed and com­
                        June 2011       Operations
                                                                  ments sent to HRS for final revision. Target date for imple­
                                                                  mentation is the third quarter of FY 14.
                                                                  Review positions to determine whether they are prone to
                                                                  telework and do not create an additional burden on other
                                                                  areas—The telework LCR was revised to require that the na­
                       2010-PA-102   Office of Support            ture of the work be suitable for telework and not adversely
Telework Program                                          II.1
                        June 2011       Operations                affect the workload or effectiveness of the teleworker, the
                                                                  supervisor, or other employees. The LCR was forwarded to
                                                                  the HRS Director. The target date for implementation is the
                                                                  third quarter of FY 14.
                                                                  Institute policies requiring the availability of teleworkers by
                                                                  email, telephone, and in person when needed, including the
                                                                  use of remote call coverage for positions involving frequent
                       2010-PA-102   Office of Support            telephone use—The revised telework LCR requires telework­
Telework Program                                          II.2
                        June 2011       Operations                ers to be available for contact by telephone and email during
                                                                  duty hours while teleworking. The LCR was forwarded to
                                                                  HRS for final revision with implementation targeted for the
                                                                  third quarter of FY 14.
                                                                  Require employees who are expected to telework during a
                                                                  Continuity of Operations (COOP) event to have adequate
                                                                  training, infrastructure support, and practice—The Library’s
                       2010-PA-102   Office of Support            Remote Environment is a new key infrastructure element
Telework Program                                         IV.1.a
                        June 2011       Operations                that allows employees to telework during a COOP event.
                                                                  Staff training and education is underway and a hands-on drill
                                                                  that will implement this recommendation fully is anticipated
                                                                  for the fourth quarter of FY 14.




                             MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS • 20 1

Unimplemented Recommendations 1

Table 4A:        Significant Recommendations from Previous Semiannual 

                 Reports for Which Corrective Action Has Not Been Completed 1
       Subject            Report No.              Office          Rec.        Summary and Status of Recommendation
                          Issue Date                              No.
Office of Support Operations (Continued)
	
	
                                                                           Implement a telework agreement that provides for a COOP
                                                                           event—The Library’s revised telework agreement allows for
                          2010-PA-102      Office of Support               episodic telework arrangements, including a COOP event.
Telework Program                                                  IV.1.b
                           June 2011          Operations                   The Human Capital Planning Board will ensure that agree­
                                                                           ments are in place for COOP teleworkers. Target date for
                                                                           implementation is the third quarter of FY 14.
                                                                           Incorporate teleworking scenarios in COOP exercises—The
                                                                           Library’s new Remote Environment, a key infrastructure sup­
                                                                           port element that gives employees the ability to telework dur­
                          2010-PA-102      Office of Support
Telework Program                                                  IV.2     ing a COOP event, was designed to accommodate all COOP
                           June 2011          Operations
                                                                           scenarios. COOP exercises were incorporated into training
                                                                           objectives. Exercises and full implementation are planned for
                                                                           the fourth quarter of FY 14.
Library Services (LS)
                                                                           Establish criteria for specifically defining top treasure collec­
                                                                           tion items and a clear process to nominate or transfer col­
Top Treasures Security
                          2008-PA-103                                      lection items to the category—The draft LCR includes top
and Preservation                               Library Services    I.a
                          January 2009                                     treasure nomination forms and an emergency release form.
Controls
                                                                           The draft is under review with a target completion date in the
                                                                           fourth quarter of FY 14.
                                                                           Update LCR 1816 to include designing a serialized docu­
                                                                           ment that is counterfeit resistant, reassigning the responsible
                                                                           office to ensure oversight, documenting accountability, and
                                                                           implementing procedures to more appropriately account for
                                                                           and retire used passes. Revise the LCR to implement a pass
                          2010-PA-106                                      designed for specific Surplus Books Program (SBP) use—In
Surplus Books Program                          Library Services   I.c.1
                         September 2011                                    July 2013, the Office of Security and Emergency Preparedness
                                                                           reported that it had finished meetings with stakeholders for
                                                                           implementing a pass. The next steps are to incorporate revi­
                                                                           sions, and schedule another meeting of the group, including
                                                                           ITS. Updating the LCR will follow, with a target completion
                                                                           date in the fourth quarter of FY 14.
                                                                           SBP management should implement the use of a software ap­
                                                                           plication to collect and analyze program operating data—As a
                          2010-PA-106                                      secondary project, the ITS staff member assigned is continually
Surplus Books Program                          Library Services   II.a.1
                         September 2011                                    pulled off the project to address other assignments. This has im­
                                                                           pacted the completion date and implementation is now project­
                                                                           ed for the third quarter of FY 14.
                                                                           LS management should collect the required data to conduct an
                                                                           analysis to determine whether the Library derives tangible ben­
                          2010-PA-106                                      efits from processing other agencies’ surplus material transfers—
Surplus Books Program                          Library Services   II.c.1
                         September 2011                                    SBP has not accepted transfers from other agencies since Oc­
                                                                           tober 2011 and expects to keep that policy in effect. The target
                                                                           date for a final decision is the fourth quarter of FY 14.




21 • MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS 1

Table 4A:       Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
        Subject              Report No.      Office       Rec.       Summary and Status of Recommendation
                             Issue Date                   No.
 Office of Strategic Initiatives (OSI)
                                                                  Account for all IT costs, including computer security as part of
                                                                  the IT budgetary process—The Office of the Librarian contin­
                                                                  ues its information resources management (IRM) plan imple­
 Information                                Information
                             2011-IT-103                          mentation and IT spending and investment reviews. The results
 Technology Strategic                       Technology    I.2.C
                            December 2011                         of these reviews and current Library-wide planning will deter­
 Planning Follow-up                           Services
                                                                  mine whether any organizational or resource allocation changes
                                                                  are warranted. The target implementation date is the first quarter
                                                                  of FY15.
                                                                  Separate the IT support functions from OSI and establish the
                                                                  Office of the Chief Information Officer (CIO) from the ITS Di­
                                                                  rectorate and other IT support functions of OSI. The CIO will
                                                                  report directly to the Librarian or Deputy Librarian with duties,
 Information                                Information           responsibilities, and authority consistent with best practices—
                             2011-IT-103
 Technology Strategic                       Technology    I.3.A   The Office of the Librarian continues its IRM plan implemen­
                            December 2011
 Planning Follow-up                           Services            tation and IT spending and investment reviews. The results of
                                                                  these reviews and current Library-wide planning will determine
                                                                  whether any organizational or resource allocation changes are
                                                                  warranted. The target implementation date is the first quarter
                                                                  of FY 15.
                                                                  Implement service level agreements to manage customer ex­
                                                                  pectations—The current strategic planning process overseen
 Information                                Information           by the Strategic Planning Office (SPO) has a provision for
                             2011-IT-103
 Technology Strategic                       Technology    I.5.A   ITS to provide support to service units according to their
                            December 2011
 Planning Follow-up                           Services            documented requirements. This recommendation is pending
                                                                  further guidance from the strategic planning process with a
                                                                  target completion date in the first quarter of FY 15.
                                                                  Rather than offering the new help desk system as an interface,
                                                                  ITS should require all technology offices throughout the Li­
                                                                  brary to use a standard help desk system to take advantage
 Information                                Information
                             2011-IT-103                          of economies of scale—ITS continues to work closely with
 Technology Strategic                       Technology    I.5.D
                            December 2011                         service units to leverage the centralized, shared solution for
 Planning Follow-up                           Services            help desk management. ITS plans to integrate the remaining
                                                                  service units as resources are made available with a target date
                                                                  in the first quarter of FY 15.
                                                                  Develop a set of metrics for ongoing use to measure perfor­
                                                                  mance. These metrics should change and evolve over time
                                                                  as one area shows improvement; new metrics should be de­
 Information                                Information           veloped for other areas—A comprehensive set of metrics was
                             2011-IT-103
 Technology Strategic                       Technology    I.5.F   established as part of the new IT help desk contract. Over
                            December 2011
 Planning Follow-up                           Services            the next several months ITS will gather baseline data in order
                                                                  to evaluate the effectiveness of these metrics and determine
                                                                  what refinements are necessary. The target date for comple­
                                                                  tion is the fourth quarter of FY 14.
                                                                  Conduct regular customer surveys and open informational
 Information                                Information           meetings—The Enhanced Help Desk project includes im­
                             2011-IT-103
 Technology Strategic                       Technology    I.5.G   provements to survey capabilities tied to closed incident and
                            December 2011
 Planning Follow-up                           Services            service request tickets. The target completion date is the third
                                                                  quarter of FY 14.




                                    MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS • 22 1

Unimplemented Recommendations 1

Table 4A:       Significant Recommendations from Previous Semiannual
                Reports for Which Corrective Action Has Not Been Completed
       Subject             Report No.               Office            Rec.      Summary and Status of Recommendation
                           Issue Date                                 No.
Office of Strategic Initiatives (Continued)
                                                                             ITS should improve its communications and transparency
                                                                             with service units regarding the IT equipment which is
                                                                             available in inventory—The IT Asset Management & Con­
                                                                             figuration Management Database (CMDB) project is being
Information                                       Information
                            2012-PA-101                                      chartered and will span 18-24 months. The CMDB will use
Technology Workstation                            Technology          I.1
                           September 2012                                    a phased approach to aggregate IT assets and configurable
Management                                          Services                 items. In addition, ITS takes a monthly inventory and will
                                                                             publish the information on the ITS Web site. Target date
                                                                             for implementation of the first phase is the fourth quarter
                                                                             of FY14.
                                                                             Collect data on efficiency levels of servers, maintain com­
                                                                             prehensive server inventory data in a central repository,
                                                                             and continuously track data on the power used by its data
                                                  Information                center—The resources required to implement server effi­
Library-Wide                2013-IT-101
                                                  Technology          I.1    ciency tracking are supporting priority projects, including
Computing Efficiencies      March 2013
                                                    Services                 the implementation of environmental controls monitoring
                                                                             for Library collections and critical technology infrastructure
                                                                             components. The target implementation date is revised to
                                                                             the fourth quarter of FY 14.
                                                                             Report to the Deputy Librarian the progress made in adopt­
                                                                             ing the specific recommendations of the outside consultant’s
                                                                             report on server virtualization, and the steps and timeframes
                                                                             it will take to implement such recommendations and the Li­
                                                                             brary’s return on investment/cost savings to be achieved—
                                                  Information
Library-Wide                2013-IT-101                                      ITS is currently identifying viable recommendations from the
                                                  Technology          I.2
Computing Efficiencies 
    March 2013 
                                     consultant’s report in the context of other strategic technol­

                                                    Services
                                                                             ogy initiatives, ongoing operational activities, and resource
                                                                             constraints at the Library. ITS will construct a plan for im­
                                                                             plementing viable recommendations and provide reasons for
                                                                             those it will not implement. ITS anticipates completing this
                                                                             plan by the third quarter of FY 14.
                                                                             Develop an enterprise-wide plan to guide management
                                                                             decision-making on possible cloud solutions—ITS has de­
                                                  Information
Library-Wide                2013-IT-101                                      veloped a plan to guide decision-making on potential cloud
                                                  Technology          II.1
Computing Efficiencies 
    March 2013 
                                     solutions. This plan will be vetted with Library management 

                                                    Services
                                                                             and stakeholders over the next several months with a target
                                                                             date for completion in the fourth quarter of FY 14.
                                                                             Instruct ITS to take the lead in initiating evaluations of vi­
                                                                             able cloud computing solutions for the Library—ITS has de­
                                                  Information
Library-Wide                2013-IT-101                                      veloped a plan to guide decision-making on potential cloud
                                                  Technology          II.2
Computing Efficiencies 
    March 2013 
                                     solutions. This plan will be vetted with Library management 

                                                    Services
                                                                             and stakeholders over the next several months with a target
                                                                             date for completion in the fourth quarter of FY 14.
                                                                             LS should collaborate with the Web Governance Board and
                                                                             ITS to evaluate whether there is usable data in the XML da­
                                                                             tabase and, if so, develop a plan to migrate the data stored to
Enterprise wide              2013-IT102       Office of the Librar­
                                                                       II    the new Web search platform—ITS is ready to work collab­
Web Search Strategy        September 2013         ian, OSI, LS
                                                                             oratively to evaluate the XML database and develop a plan to
                                                                             migrate the usable data. The target date for implementation
                                                                             is the second quarter of FY 15.




23 • MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS 1

Right: Fukagawa Hatiman yamabiraki, open garden at fukagawa Hachi-
man Shrine by Hiroshige, c. 1857.

Repository: Prints and Photographs Division




                                               MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS • 24 1

Implemented and Closed Recommendations 1

Table 4B:         Significant Recommendations from Previous Semiannual Reports

                  Which Were Implemented or Closed During This Period 1

         Subject           Report No.         Office          Rec.            Summary of Recommendation
                           Issue Date                         No.                    and Action
Office of the Librarian
                                                                     Revise the performance management directives to ad­
                                                                     dress requirements for service unit verification and vali­
                                                                     dation of performance data. Data requirements should
                                                                     compliment the specific, measurable, achievable, rel­
                                                                     evant, time-bound (SMART) criteria applied to perfor­
                                                                     mance measurements. Verification requirements should
                                                                     address data completeness, accuracy, and consistency as
 Performance-based          2013-PA-101                              well as the related quality control practices for ensuring
                                            Library-wide      I.1
 Budgeting III              March 2013                               data will be of sufficient quality to document perfor­
                                                                     mance and support decision-making. Validation proce­
                                                                     dures should assure that the data are appropriate for the
                                                                     performance measurement—Draft manuals were created
                                                                     as part of the Governing Documents initiative. OCFO
                                                                     held meetings, workshops, and briefings on SMART
                                                                     criteria and verification and validation. OCFO also up­
                                                                     dated the performance directives.
                                                                     SPO should take a more effective role in evaluating the
                                                                     adequacy of service unit data used to measure progress
                                                                     towards performance targets. Implement a process simi­
                                                                     lar to National Archives and Records Administration’s
                                                                     metric specification document to define and prequalify
                                                                     performance data and related performance measures
                                                                     during the formulation stage of the performance cycle.
                                                                     That document should require service units to identify
 Performance-based          2013-PA-101                              and define the performance data used to measure prog­
                                            Library-wide      I.2
 Budgeting III              March 2013                               ress towards performance targets. Service units should
                                                                     also document how they intend to both verify the per­
                                                                     formance data and validate how the data relates to the
                                                                     performance measurement—SPO developed a template
                                                                     describing how to create a performance target and con­
                                                                     ducted several workshops. The forthcoming enhanced
                                                                     eLCplans system requires designated service unit manag­
                                                                     ers and executives to review and approve performance
                                                                     targets.
                                                                     SPO should review the metric specification document
                                                                     for completeness and assure that service unit descriptions
                                                                     of its verification and validation activities meet perfor­
 Performance-based          2013-PA-101
                                            Library-wide      I.3    mance methodology requirements—SPO implemented
 Budgeting III              March 2013
                                                                     a review process for draft and final service unit informa­
                                                                     tion to ensure that descriptions meet performance meth­
                                                                     odology.
 Library Services (LS)
                                                                     Design and implement an internal control system that
                                                                     will ensure that valid and verifiable data will be collected
                                                                     and used to measure program performance—Library Ser­
 Performance-based          2010-PA-107
                                           Library Services   II.2   vices implemented the new verification and validation sys­
 Budgeting                  January 2011
                                                                     tem. Officials responsible for performance targets received
                                                                     training from SPO and used the system to establish FY 14
                                                                     performance targets, milestones, and standards. 



25 • MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS 1

Table 4B:         Significant Recommendations from Previous Semiannual Reports
                  Which Were Implemented or Closed During This Period
         Subject          Report No.                Office          Rec.            Summary of Recommendation
                          Issue Date                                No.                    and Action
Human Resources Services (HRS)
                                                                           Develop and implement a structured procedure that
                                                                           provides a uniform method for making in/outsource
                                                                           personnel determinations. This procedure should pro­
                                                                           vide the means to identify which activities are inherently
                                 2010-PA-105    Human Resources            governmental and which service provider represents the
Multi-Sector Workforce                                               I
                                 March 2011        Services                best value to the Library—The National Finance Center
                                                                           Person model is fully implemented. The Board was pro­
                                                                           vided a process to apply existing procedures, workflows,
                                                                           and approvals to accomplish the objectives within exist­
                                                                           ing policy framework.
Office of Strategic Initiatives (OSI)
                                                                           Coordinate with service and support units to identify
                                                                           and prioritize the legacy systems/applications that re­
Information                                       Information              quire certification and accreditation evaluations, and
                                 2011-IT-103
Technology Strategic                              Technology        II.1   determine how the required evaluations should be
                                December 2011
Planning Follow-up                                  Services               funded—Technical changes to LCR 1620, Information
                                                                           Technology Security Policy of the Library of Congress were
                                                                           completed in the fourth quarter of FY 13.
                                                                           Determine whether there are any projects that are in de­
                                                                           velopment but did not otherwise meet the ITSC’s crite­
                                                                           ria of being a new project, and include them under the
Enterprise wide                  2013-IT102     Office of the Li­          ITSC’s purview—The ITSC chair requested that ITSC
                                                                     III
Web Search Strategy            September 2013   brarian, OSI, LS           members consider active IT projects as investments
                                                                           tracked by the ITSC, with the goal of producing a report
                                                                           of the review and results. One investment was added it
                                                                           to the ITIM Control Phase.




                                        MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS • 26 1

     Funds Questioned or Put to Better Use 1

      Table 5:          Audits with Recommendations for Better Use of Funds 1

                                                                        Number of Audit   Total Funds Put
                                                                           Reports         to Better Use
      No management decision was made by the start of the period:              -                 -

      Issued during the period:                                                -                 -
      In need of management decision during the period:                        -                 -
      Management decision made during the reporting period:

               Value of recommendations agreed to by management                -                 -

               Value of recommendations not agreed to by management            -                 -

      No management decision made by the end of the reporting period:
                                                                               -                 -
               Less than 6 months old:
                                                                               -                 -
               More than 6 months old:




      Table 6:          Audits with Questioned Costs 1
                                                                        Number of Audit    Total Ques-
                                                                           Reports         tioned Costs

      No management decision made by the start of the period:                  -                 -

      Issued during the period:                                                -                 -
      In need of management decision during the period:                        -                 -
      Management decision made during the reporting period:

               Value of recommendations agreed to by management                -                 -

               Value of recommendations not agreed to by management            -                 -

      No management decision made by the end of the reporting period:

               Less than 6 months old:                                         -                 -

               More than 6 months old:                                         -                 -




27 • MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS 1

Instances Where Information or 

Assistance Requests Were Refused 1
No information or assistance requests were refused during this period.

Status of Recommendations
Without Management Decisions
During the reporting period, there were no recommendations more than six months old without
management decisions.

Significant Revised Management Decisions
The Library’s I-900 initiative offered the potential to address in part the OIG’s concerns about underutilized
reading rooms and other space. I-900 involved consolidating collection materials into a Center of
Knowledge within the Main Reading Room and some adjacent space. However, the Library made a
significant management decision recently to discontinue I-900 and instead focus on its Futures Program.
The Futures Program will provide the basis for defining and implementing, in 2016, a new strategic plan
for the Library. OIG will assess the impact of the Library’s decision on space utilization efforts and other
long-term challenges as more information about the Futures Program becomes available.

Significant Management Decisions
with Which OIG Disagrees
During this reporting period, there were no signification management decisions with which we disagreed.

Follow-up on Prior Period Recommendations
In this semiannual period, we followed up on all open recommendations from our prior semiannual pe­
riod. Management’s comments on the status of individual recommendations appear in table 4A. Recom­
mendations that management asserts it implemented during the period appear in table 4B. In order to
confirm that recommendations were implemented as reported, we perform periodic follow-up on selected
projects to verify implementation; however, all assertions contained in table 4B are the representations of
management.




                            MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS • 28 1

OIG Organizational Chart 1





                                                             Inspector General
                     Counsel to the IG
                                                             Vacant                                   Administrative Officer
                     Deborah Lehrich
                                                              Kurt W. Hyde CPA                        Sheetal Gupta
                     (Part-Time)                             (Acting)




               Assistant Inspector                                                                   Assistant Inspector
               General for Audits                                                                    General for Investigations
               Kurt W. Hyde                                                                           Thomas E. Williams
               CPA                                                                                    CCE, ACE, SCERS




Senior Lead Auditor                      Senior Lead                             Special Agent                          Special Agent
John R. Mech                             Management Analyst                      Hugh D. Coughlin                          Pamela D. Hawe (Part-time)
CPA                                      Eric Mader                                                                        SCERS



Lead Auditor                             Management Analyst                      Management Analyst                     Special Agent
Walter E. Obando                         Sarah Sullivan                          Michael R. Peters                      Donald Lyles (Part-time, Temporary)
CIA, CISA                                                                        SCERS                                  SCERS




Auditor                                  Management Analyst
Elizabeth Valentin                       Jennifer R. Bosch
CPA, CISA



Auditor
Christine C. Cochrane
CPA, CrFA




                                                                                      Below: Syayoi asukayama hanami, tea party beneath 

                                                                                      cherry blossoms by Shigemasa Kitao. c. 1772-76 1

                                                                                      Repository: Prints and Photographs Division




29 • MARCH 2014 SEMIANNUAL REPORT TO THE CONGRESS 1

Inspector General HotlIne



    Help promote InteGrIty, economy, and effIcIency

report suspected fraud, Waste, abuse, or mIsmanaGement

          complaInts may be made anonymously




                     Inspector General



                    lIbrary of conGress



              101 Independence avenue, s.e.


                           lm-630



               WasHInGton, dc 20540 -1060






   maIn telepHone number:           (202) 707-6314

               fax number:          (202) 707-6032

 HotlIne telepHone number:          (202) 707-6306

             HotlIne emaIl:         oighotline@loc.gov

                   p.o. box:        15051 S.E. Station
                                    Washington, DC 20003-9997




      Any information you provide will be held in confidence.
    However, providing your name and a means of communicating
         with you may enhance our ability to investigate.
Office of the Inspector General
101 Independence Avenue SE
Washington, DC 20540-1060
tel 202.707.6314 hotline 202.707.6306
www.loc.gov/about/oig/
